No. 20-1599

 

 

In THE
Supreme Court of the United States

JOHN DOE 7, JANE Dog 7, JUANA Dok 11,
MINorR DoE 114, SEVEN SURVIVING CHILDREN OF
JOSE LOPEZ 339, AND JUANA PEREZ 434,

Petitioners,
ve
CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,826 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 6, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
